                                         JON 2 0 2014

TO: 	          Marilyn Tavenner
               Administrator
               Centers for Medicare & Medicaid Services
                   /S/
FROM:          Brian P. Ritchie
               Acting Deputy Inspector General
                for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Medicare Market Shares ofMail Order Diabetes Test
           Strips Immediately Prior to the National Mail Order Program, OEI-04-13-00681

This report provides information on the types of mail order diabetes test strips associated with
Medicare claims for the 3-month period of April to June 2013, i.e., the 3-month period
immediately prior to the start of a national program for mail order diabetic testing supplies on
July 1, 2013. The Centers for Medicare & Medicaid Services (CMS) asked the Office of
Inspector General (OIG) to conduct a study to determine market shares of diabetes test strips for
this 3-month period. CMS may choose to use the results of this report for program analysis
purposes and to evaluate the effect of the Competitive Bidding Program on brand choice.

SUMMARY

Medicare covers diabetes test strips provided by mail order suppliers and local pharmacies or
supplier storefronts. The Medicare Prescription Drug, Improvement, and Modernization Act of
2003 (MMA) requires CMS to phase in, with several rounds ofbidding, a Competitive Bidding
Program for durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). Under
this program, suppliers compete to become Medicare contract suppliers for selected DMEPOS
items. The payment amounts resulting from the competition replace the Medicare fee-schedule
amounts for these items.

The Competitive Bidding Program includes diabetes test strips provided by mail order but does
not include diabetes test strips purchased at a local pharmacy or supplier storefront (i.e.,
non-mail order) . Under the program, "mail order" includes diabetes test strips shipped or
delivered to the beneficiary's home, regardless of the method of delivery. Non-mail order
diabetes test strips are those that a beneficiary picks up in person at a local pharmacy or supplier
storefront. The American Taxpayer Relief Act of2012 (ATRA) established equal Medicare
payment amounts for mail order and non-mail order diabetes test strips purchased after the
implementation of a national program for mail order diabetes testing supplies (hereinafter
Page 2 – Marilyn Tavenner


referred to as the National Mail Order Program).1 CMS implemented the National Mail Order
Program on July 1, 2013.

The Medicare Improvements for Patients and Providers Act (MIPPA) prohibits CMS from
awarding Competitive Bidding Program contracts for mail order diabetes test strips to suppliers
who do not demonstrate that their bid covers at least 50 percent, by volume, of all types of
diabetes test strips. (This is referred to as the MIPPA 50-percent requirement.) Further, MIPPA
section 154(d)(3)(B) requires OIG to complete a study to determine market shares of diabetes
test strips in the Competitive Bidding Program before each round of competitive bidding
following Round 1.

We determined the Medicare market shares for diabetes test strip types associated with a random
sample of Medicare claims for the 3-month period of April to June 2013, immediately prior to
implementation of the National Mail Order Program. Our sample of 1,210 claims was drawn
from a population of 1,363,668 claims for mail order diabetes test strips provided to beneficiaries
during this period. We projected our sample data to the population of mail order diabetes test
strips to estimate the Medicare market shares.

We found that 152 suppliers submitted claims for at least 62 types of mail order diabetes test
strips for the 3-month period of April to June 2013. Two types of diabetes test strips accounted
for 34 percent of the Medicare mail order market share. Four types of diabetes test strips
accounted for 51 percent of the Medicare mail order market share, and 10 types accounted for
75 percent. CMS may choose to consider these data for its informational purposes and to
evaluate the effect of the National Mail Order Program on brand choice.

BACKGROUND

Diabetes is a chronic disease in which a person has a high blood sugar (i.e., glucose) level either
because the body does not produce enough insulin, or cells do not respond properly to the insulin
that the body does produce.2 Diabetes may be managed through a variety of methods, including
healthy eating, physical activity, and insulin injections.3 If people with diabetes do not properly
manage their glucose levels, medical complications (e.g., hypoglycemia, cardiovascular disease,
or renal disease) may occur.

Diabetes disproportionately affects older adults. Approximately 27 percent of individuals ages
65 and older report having diabetes, whereas the reported percentage in the overall population is
8 percent.4 Medicare covers services and testing supplies to help beneficiaries with diabetes
manage the condition.

1
  ATRA, P.L. No. 112-240 § 636 (adding Social Security Act, § 1834(a)(1)(H), 42 U.S.C. § 1395m(a)(1)(H)).

2
  National Institutes of Health (NIH), Diabetes Overview: What is Diabetes? Accessed at 

http://www.diabetes.niddk.nih.gov/dm/pubs/overview/index.htm on October 11, 2013. 

3
  NIH, Diabetes Overview: How is Diabetes Managed? Accessed at 

http://www.diabetes.niddk.nih.gov/dm/pubs/overview/index.htm#managed on October 11, 2013. 

4
  The Centers for Disease Control and Prevention. Diabetes Self Management Overview. Accessed at 

http://www.cdc.gov/diabetes/pubs/pdf/ndfs_2011.pdf on October 3, 2013. 


Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 3 – Marilyn Tavenner


A person with diabetes may use a hand-held meter to test the concentration of glucose in his or
her blood. To do so, the individual inserts a diabetes test strip into the meter. A diabetes test
strip is a small, thin, one-time-use piece of plastic on which a sample of blood is placed after
pricking the skin with a lancet. The meter’s reading of an individual’s glucose level provides the
information required for that person to manage his or her diabetes. People with diabetes may
need to perform glucose tests several times a day to assist them in maintaining appropriate
glucose levels.

To be eligible for Medicare coverage of diabetes test strips and other diabetes supplies, Medicare
beneficiaries with diabetes must be under the treatment of a physician for the condition.5 The
physician must prescribe the frequency of use for diabetes test strips.6 Because some
beneficiaries should test their glucose more frequently than others, the number of boxes of
diabetes test strips per Medicare claim varies.7 Each box contains 50 strips.

Suppliers submit one Medicare claim for a beneficiary’s supply of diabetes test strips for up to
3 months at a time. Each claim indicates the number of boxes provided to the beneficiary for the
applicable time period. Suppliers submit claims using Healthcare Common Procedure Coding
System (HCPCS) codes to receive Medicare reimbursement. Medicare claims for diabetes test
strips are billed using HCPCS code A4253. For diabetes test strips provided by mail order, the
HCPCS code A4253 must use the KL modifier (A4253 KL).8

Medicare beneficiaries may purchase their diabetes test strips via mail order from suppliers in the
Competitive Bidding Program or via non-mail order from local pharmacies or supplier
storefronts. Mail order applies to diabetes test strips shipped or delivered to a beneficiary’s
residence.9 For both mail order and non-mail order, Medicare pays 80 percent of allowed
charges for diabetes test strips and the beneficiary is responsible for the remaining 20 percent.

The Competitive Bidding Program and National Mail Order Program for Diabetes Test
Strips
MMA required CMS to phase in, with several rounds of bidding, the Competitive Bidding
Program for selected DMEPOS items, including mail order diabetes test strips.10 The selected
DMEPOS items are generally high-cost and high-volume items that have a high savings potential



5
  Other diabetes testing supplies may include batteries and control solution.

6
  Medicare Local Coverage Determinations (LCDs) for Glucose Monitors (L11530, L27231, L11520, and L196 for

Durable Medical Equipment Medicare Administrative Contractor Jurisdictions A, B, C, and D respectively). 

7
  CMS, MLN Matters Number SE1008. An Overview of Medicare Covered Diabetes Supplies and Services. 

Accessed at http://www.cms.gov/MLNMattersArticles/downloads/SE1008.pdf on October 25, 2013. Medicare 

covers up to 100 testing strips per month (i.e., two 50-count boxes) for insulin-dependent beneficiaries with diabetes

and up to 100 testing strips every 3 months for noninsulin-dependent beneficiaries with diabetes. Medicare allows 

additional testing strips if deemed medically necessary and documented in physician records. Medicare LCDs for 

Glucose Monitors (L11530, L27231, L11520, and L196).

8
  Medicare Claims Processing Manual, Pub. No. 100-04, ch. 36 §§ 20.5.4.1 and 50.6. A modifier is a code on a

Medicare claim that further describes the services performed or supplies provided to a beneficiary.

9
  42 CFR § 414.402 (defining “mail order item”). 

10
   MMA, P.L. No. 108-173 § 302(b)(1) (amending Social Security Act, § 1847, 42 U.S.C. § 1395w-3). 


Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 4 – Marilyn Tavenner


under the Competitive Bidding Program.11 CMS uses bids submitted by DMEPOS suppliers to
determine the competitive bidding payment amounts. Bids are evaluated based on suppliers’
eligibility, their financial stability, and the bid price.12 Contracts are awarded to the suppliers
that generally offer lower prices and meet applicable quality and financial standards.13 Round 1
of the Competitive Bidding Program began on January 1, 2011. Round 2 began on July 1, 2013.
See Appendix A for more information about Rounds 1 and 2 of the Competitive Bidding
Program.

MIPPA required, after Round 1 of the Competitive Bidding Program, that mail order suppliers
must demonstrate in their bids that they provide at least 50 percent, by volume, of all types of
diabetes test strips.14 Further, MIPPA section 154(d)(3)(B) requires OIG to complete a study to
determine market shares of mail order diabetes test strips in the Competitive Bidding Program
before each subsequent round of competitive bidding.15

National Mail Order Program. MIPPA authorized a National Mail Order Program beginning
July 1, 2013, for mail order diabetes testing supplies, expanding the Competitive Bidding
Program to all U.S. States and Territories. Additionally, ATRA established equal Medicare
payment amounts for mail order and non-mail order diabetes test strips provided after
implementation of the National Mail Order Program. CMS implemented both the National Mail
Order Program and Round 2 of the Competitive Bidding Program on July 1, 2013.16 Thus, under
Round 2 of the Competitive Bidding Program, both mail order and non-mail order diabetes test
strips are reimbursed at the same competitive bidding payment rate, $10.41 per 50-count box.

Related OIG Work
In December 2010, OIG completed the first report to fulfill its MIPPA requirement to determine
market shares of diabetes test strips before 2011. OIG found that 171 suppliers submitted claims

11
   CMS, General Overview of the Final Rule for Competitive Acquisition for Certain Durable Medical Equipment, 

Prosthetics, Orthotics, and Supplies. Accessed at https://www.cms.gov/DMEPOSCompetitiveBid/Downloads/ 

DMEPOSRegSumm.pdf on October 4, 2013; 73 Fed. Reg. 17992, 18010 (Apr. 10, 2007).

12
   Palmetto GBA, Overview of the DMEPOS Competitive Bidding Program. Accessed at 

http://www.dmecompetitivebid.com/palmetto/cbic.nsf/vMasterDID/79NTSG0132 on October 16, 2013.

13
   Palmetto GBA, How a Bid is Evaluated. Accessed at http://www.dmecompetitivebid.com/Palmetto/cbicrd2.nsf/

files/Webcast_Transcript_Bid_Evaluation.pdf/$File/Webcast_Transcript_Bid_Evaluation.pdf on February 24, 2014;

CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 36, § 40.1. The payment amount for an item

furnished under the competitive bidding program is equal to the median of the bids submitted by qualified suppliers 

whose composite bids are equal to or below the “pivotal bid” for that product category. 42 CFR § 414.416(b). The 

pivotal bid is the lowest composite bid based on bids submitted by suppliers that includes a sufficient number of 

suppliers to meet beneficiary demand for the items in a product category. 42 CFR § 414.402.

14
   Specifically, MIPPA stipulates that suppliers provide at least “50 percent (or such higher percentage as the 

Secretary may specify)” of all diabetes test strips “in the aggregate and taking into account volume for the different 

products.” MIPPA, P.L. No. 110-275 § 154(d)(3)(B) (adding Social Security Act § 1847(b)(10)(A), 42 U.S.C. 

§ 1395w-3(b)(10)(A)).

15
   MIPPA, P.L. No. 110-275 § 154(d)(3)(B) (adding Social Security Act § 1847(b)(10)(B), 42 U.S.C.

§ 1395w-3(b)(10)(B)). 

16
   CMS, Contract Suppliers Selected Under Medicare Competitive Bidding Program. Accessed at 

http://www.cms.gov/Newsroom/MediaReleaseDatabase/Press-releases/2013-Press-releases-items/2013-04-092.html
on February 19, 2014. Eighteen contracts were awarded to suppliers to provide diabetes testing supplies through the
National Mail Order Program.

Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 5 – Marilyn Tavenner


for at least 75 types of mail order diabetes test strips for the 3-month period ending
December 2009.17 Of these strips, 2 types accounted for approximately 26 percent of the
Medicare mail order market share, 7 types accounted for approximately 50 percent, and 19 types
accounted for approximately 81 percent.

In a June 2014 report, OIG determined the market share of diabetes test strips for the 3-month
period of July to September 2013, beginning with implementation of the National Mail Order
Program.18 OIG found that 22 suppliers submitted claims for at least 43 types of mail order
diabetes test strips for that period. Two types of diabetes test strips accounted for approximately
45 percent of the Medicare mail order market share. Three types of diabetes test strips accounted
for 59 percent of the Medicare mail order market share and 10 types accounted for 90 percent.
That report fulfilled OIG’s MIPPA requirement.

Finally, OIG is working on a study to determine the market share of diabetes test strips for the
3-month period of October to December 2013, several months after implementation of the
National Mail Order Program.19 OIG expects to release the report for this study in
December 2014. CMS asked OIG to conduct this study so that the results may be used for
program analysis purposes and to evaluate the effect of the National Mail Order Program on
brand selection.

METHODOLOGY

Data Collection
We identified the population of Medicare mail order diabetes test strips claims with a beginning
date of service from April through June 2013 from CMS’s National Claims History file. This
timeframe represents the 3-month period immediately prior to the start of the National Mail
Order Program on July 1, 2013. There were 1,363,668 claims submitted by 1,294 suppliers in
this file. We then selected a simple random sample of 1,210 of the 1,363,668 Medicare claims
for mail order diabetes test strips within our date-of-service range. To identify the beneficiaries
associated with each claim in our sample, we matched them with the CMS Beneficiary
Enrollment Database.

We sent a documentation request to 154 suppliers associated with the claims in our sample. For
each claim, we asked the supplier to indicate the type (model and manufacturer) of diabetes test
strips that it provided to the Medicare beneficiary associated with the claim and to submit
relevant documentation (e.g., packing slips, invoices for the strips).20 We received responses
from 152 suppliers associated with 1,199 claims in our sample, a 99-percent response rate.




17
   OIG, Medicare Market Shares of Mail Order Diabetic Testing Strips (OEI-04-11-00130), December 2010. 

18
   OIG, Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013

(OEI-04-13-00680), June 2014. 

19
   OEI-04-13-00682, in progress. 

20
   We contacted suppliers up to three times to obtain this information.


Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 6 – Marilyn Tavenner


Data Analysis
We reviewed claims data and supplier documentation and responses to determine the quantity
and type of mail order diabetes test strips associated with each claim in our sample. Each claim
in our sample contained between 1 and 15 boxes, and data for the 1,199 claims provides
information for a total of 4,357 boxes of diabetes test strips.21

We categorized types of diabetes test strips by model and manufacturer. We accounted for the
volume of each type by determining the total number of 50-count boxes of each type of diabetes
test strip and the percentage of each type across all boxes. We projected our sample data to the
population of mail order diabetes test strips during our time period to estimate the Medicare
market shares of mail order diabetes test strip types.

Limitations
Suppliers have 1 year to submit claims to CMS. Types of diabetes test strips associated with
claims during our time period (i.e., with beginning dates of service in the months of April
through June 2013) submitted after November 1, 2013—the date we collected our Medicare
claims—are not included.

Standards
This review was conducted in accordance with the Quality Standards for Inspections approved
by the Council of the Inspectors General on Integrity and Efficiency.




21
     Most claims (93 percent) were for 1 to 6 boxes.

Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 7 – Marilyn Tavenner


RESULTS

Suppliers Submitted Claims for at Least 62 Types of Mail Order Diabetes Test Strips for
the 3-Month Period of April to June 2013
One hundred fifty-two suppliers submitted claims for at least 62 types of mail order diabetes test
strips for the 3-month period of April to June 2013. Two types of diabetes test strips accounted
for 34 percent of the Medicare mail order market share. Four types of diabetes test strips
accounted for 51 percent of the Medicare mail order market share, and 10 types accounted for
75 percent.

Table 1 lists the top 10 types of mail order diabetes test strips associated with Medicare claims
for the 3-month period of April to June 2013. See Appendix B for a complete alphabetical
listing of all 62 types. Appendix B also provides the model, manufacturer, percentage of market
share, and 95-percent confidence intervals for market share for each type of diabetes test strip.

Table 1: Top 10 Mail Order Diabetes Test Strips Types Associated With Medicare Claims for the
3-Month Period of April to June 2013
Model                                          Manufacturer                    Percentage of
                                                                               Market Share
Prodigy AutoCode                   Prodigy Diabetes Care                                19.4%

TRUEtest                           Nipro Diagnostics, Inc.                              14.7%

Gmate                              Philosys, Inc.                                        8.5%

Embrace                            Omnis Health                                          8.2%

OneTouch Ultra Blue                LifeScan, Inc.                                        5.0%

SolusV2                            BioSense Medical Devices                              4.7%

CONTOUR                            Bayer HealthCare LLC                                  4.6%

OneTouch Ultra                     LifeScan, Inc.                                        4.1%

FreeStyle Lite                     Abbott Diabetes Care                                  3.1%

Element                            Infopia USA                                           2.2%

   Total                                                                                74.5%
Source: OIG analysis of supplier documentation and Medicare claims containing HCPCS code A4253 KL
for the 3-month period of April to June 2013.


CONCLUSION

One hundred fifty-two suppliers submitted claims for at least 62 types of mail order diabetes test
strips for the 3-month period of April to June 2013, immediately prior to the start of the National
Mail Order Program. Two types of diabetes test strips accounted for 34 percent of the Medicare
mail order market share. Four types of diabetes test strips accounted for 51 percent of the
Medicare mail order market share, and 10 types accounted for 75 percent. CMS may choose to
consider these data for program analysis purposes and to evaluate the effect of the Competitive
Bidding Program on brand choice.


Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 8 – Marilyn Tavenner


This memorandum report is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this report, please provide them
within 60 days. Please refer to report number OEI-04-13-00681 in all correspondence.




Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 9 – Marilyn Tavenner


Appendix A

Round 1 of the Competitive Bidding Program
The MMA of 2003 required CMS to phase in, with several rounds of bidding, a Competitive
Bidding Program for DMEPOS. Suppliers began submitting bids for Round 1 of the
Competitive Bidding Program on May 15, 2007. Contracts between CMS and suppliers became
effective in selected Competitive Bidding Areas (CBAs) on July 1, 2008.22

Two weeks after the Round 1 contracts between CMS and suppliers became effective, Congress
enacted MIPPA, which mandated the following changes to the Competitive Bidding Program:

     	 the termination of contracts awarded to suppliers in Round 1;

     	 the requirement for CMS to repeat the Round 1 competition in 2009; and

     	 the institution of the MIPPA 50-percent requirement for mail order diabetes test strips in
        all rounds following the repeat of the Round 1 competition. (The repeat of the Round 1
        competition is known as the Round 1 Rebid.) 23

MIPPA also reduced the 2009 fee-schedule amounts by 9.5 percent for all DMEPOS included in
Round 1 to offset the estimated cost savings lost by the delayed implementation of the
Competitive Bidding Program.24 This reduction resulted in an average 2009 fee-schedule
amount of $32.50 per box of mail order diabetes test strips.

The Round 1 Rebid began in October 2009 and included the previous selected CBAs, except for
San Juan–Caguas–Guaynabo (Puerto Rico). CMS announced the winning contract suppliers on
November 3, 2010, and the suppliers began providing competitively bid DMEPOS items to
beneficiaries in nine selected CBAs on January 1, 2011.25 Before 2011, Medicare reimbursed all
diabetes test strips suppliers on the basis of fee-schedule amounts, which were updated annually
and varied by State. As a result of the Round 1 Rebid, the average Medicare payment for
2011 mail order diabetes test strips provided to beneficiaries in CBAs was $14.62 per 50-count
box. In contrast, the national average Medicare payment for mail order strips in non-CBAs was
22
   CMS, DMEPOS Competitive Bidding. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-Service-

Payment/DMEPOSCompetitiveBid/index.html?redirect=/DMEPOSCompetitiveBid/01a_MSAs_and_CBAs.asp on

November 5, 2013. CBAs are defined by specific ZIP Codes related to Metropolitan Statistical Areas (MSAs). 

Selected CBAs in Round 1 were Charlotte–Gastonia–Concord (North Carolina and South Carolina), Cincinnati–

Middletown (Ohio, Kentucky, and Indiana), Cleveland–Elyria–Mentor (Ohio), Dallas–Fort Worth–Arlington

(Texas), Kansas City (Missouri and Kansas), Miami–Fort Lauderdale– Pompano Beach (Florida), Orlando–

Kissimmee (Florida), Pittsburgh (Pennsylvania), and Riverside– San Bernardino–Ontario (California). 

23
   The 50-percent requirement did not apply to suppliers’ bids in Round 1 or the Round 1 Rebid.

24
   CMS, MLN Matters Number MM6270: Fee Schedule Update for 2009 for Durable Medical Equipment, 

Prosthetics, Orthotics, and Supplies (DMEPOS). Accessed at http://www.cms.gov/Outreach-and-
Education/Medicare-Learning-Network-MLN/MLNMattersArticles/downloads/MM6270.pdf on November 20, 

2013. 

25
   MMA, P.L. No. 108-173 § 302(b)(1), as amended by MIPPA, P. L. No. 110-174 § 154. CMS, Competitive 

Bidding Areas. Accessed at http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/Fact_Sheet_Competitive_ 

Bidding_Areas.pdf/$File/Fact_Sheet_Competitive_Bidding_Areas.pdf on November 5, 2013. 


Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 10 – Marilyn Tavenner


$32.47, and the national average payment for non-mail order diabetes test strips was $37.67.
CMS also reported that the Competitive Bidding Program saved the Medicare program nearly
$202.1 million in the first year of implementation.26

Round 2 of the Competitive Bidding Program
MIPPA required competition for Round 2 of the Competitive Bidding Program to occur in 2011
in 70 additional CBAs.27 The Patient Protection and Affordable Care Act of 2010 further
expanded the number of CBAs to 100 and required CMS to expand the DMEPOS competitive
bidding program nationwide or to adjust payments to suppliers using competitively bid rates by
2016.28 Round 2 of the Competitive Bidding Program began on July 1, 2013.




26
   CMS, Competitive Bidding Update—One Year Implementation Update April 17, 2012. Accessed at
https://www.cms.gov/Medicare/Medicare-Fee-for-Service-Payment/DMEPOSCompetitiveBid/Downloads/ 

Competitive-Bidding-Update-One-Year-Implementation.pdf on October 7, 2013.

27
   MIPPA, P.L. No. 110-275 § 154(d)(3)(A). 

28
   CMS, DMEPOS Competitive Bidding Program. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-
Service-Payment/DMEPOSCompetitiveBid/ on November 18, 2013. MIPPA allows for MSAs that have

populations over 8 million to be subdivided into multiple CBAs. Most Round 2 MSAs contain only one CBA; 

however, the three largest MSAs—Chicago, Los Angeles, and New York—are subdivided into multiple CBAs. 


Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 11 – Marilyn Tavenner


Appendix B
Market Share Estimates and Their 95-Percent Confidence Intervals for 62 Types of Mail Order
Diabetes Test Strips for the 3-Month Period of April to June 2013

Model                                    Manufacturer                 Percentage            95-Percent
                                                                        of Market   Confidence Interval
                                                                            Share     for Market Share
ACCU-CHEK Aviva               Roche Diagnostics                             0.14%         0.03%–0.25%

ACCU-CHEK Aviva Plus          Roche Diagnostics                             2.13%         1.71%–2.56%
ACCU-CHEK Comfort
                              Roche Diagnostics                             0.39%         0.21%–0.58%
Curve
ACCU-CHEK Compact             Roche Diagnostics                             1.03%         0.73%–1.33%
ACCU-CHEK Compact
                              Roche Diagnostics                             0.09%         0.00%–0.18%
Plus
ACCU-CHEK
                              Roche Diagnostics                             1.74%         1.36%–2.13%
SmartView*
Advance Intuition             Arkray USA                                    0.05%         0.00%–0.11%

Advocate                      Diabetic Supply of Suncoast, Inc.             0.46%         0.26%–0.66%

Advocate Redi-Code            Diabetic Supply of Suncoast, Inc.             1.24%         0.91%–1.57%

Advocate Redi-Code +          Diabetic Supply of Suncoast, Inc.             0.87%         0.60%–1.15%

BREEZE 2                      Bayer HealthCare LLC                          1.77%         1.38%–2.16%

Care Sens                     i-Sens                                        0.37%         0.19%–0.55%

Care Sens N                   i-Sens                                        0.23%         0.09%–0.37%

Clever Chek                   Simple Diagnostics                            0.18%         0.06%–0.31%

Clever Choice Pro             Simple Diagnostics                            0.32%         0.15%–0.49%

Clever Choice Voice           Simple Diagnostics                            0.57%         0.35%–0.80%
Clever Choice Voice
                              Simple Diagnostics                            0.05%         0.00%–0.11%
Plus
CONTOUR                       Bayer HealthCare LLC                          4.57%         3.95%–5.19%

CONTOUR NEXT                  Bayer HealthCare LLC                          1.63%         1.25%–2.01%

CONTOUR TS                    Bayer HealthCare LLC                          1.15%         0.83%–1.46%

EasyGluco G2                  US Diagnostics                                0.14%         0.03%–0.25%

EasyGluco Plus                US Diagnostics                                0.48%         0.28%–0.69%

EASYMAX N                     Oak Tree International Holdings               0.69%         0.44%–0.93%

EASYMAX V                     Oak Tree International Holdings               0.05%         0.00%–0.11%

Easy Plus II                  Home Aide Diagnostics                         0.18%         0.06%–0.31%

Easy Step                     Home Aide Diagnostics                         0.09%         0.00%–0.18%

Easy Talk                     Home Aide Diagnostics                         0.23%         0.09%–0.37%

Element                       Infopia USA                                   2.16%         1.73%–2.59%
*This diabetes test strip may also be listed as the ACCU-CHEK Nano SmartView.         continued on next page


Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 12 – Marilyn Tavenner


Appendix B
Market Share Estimates and Their 95-Percent Confidence Intervals for 62 Types of Mail Order
Diabetes Test Strips for the 3-Month Period of April to June 2013 (continued)

Model                            Manufacturer            Percentage              95-Percent
                                                           of Market     Confidence Interval
                                                               Share       for Market Share
Embrace                  Omnis Health                         8.17%            7.36%–8.98%

Evencare G2              Medline Industries, Inc.             0.09%            0.00%–0.18%

V10/D20                  ForaCare, Inc.                       0.14%            0.03%–0.25%

V30a                     ForaCare, Inc.                       0.05%            0.00%–0.11%

FreeStyle                Abbott Diabetes Care                 0.05%            0.00%–0.11%

FreeStyle InsuLinx       Abbott Diabetes Care                 0.32%            0.15%–0.49%

FreeStyle Lite           Abbott Diabetes Care                 3.12%            2.61%–3.64%

GE 100                   BIONIME USA Corporation              0.14%            0.03%–0.25%

GLUCOCARD 01             Arkray USA                           0.23%            0.09%–0.37%
GLUCOCARD
                         Arkray USA                           0.92%            0.63%–1.20%
Expression
GLUCOCARD Vital          Arkray USA                           0.69%            0.44%–0.93%

GlucoNavii               SD Biosensor, Inc.                   0.14%            0.03%–0.25%

GM100                    BIONIME USA Corporation              0.09%            0.00%–0.18%

GM300                    BIONIME USA Corporation              1.61%            1.23%–1.98%

Gmate                    Philosys, Inc.                       8.54%            7.71%–9.37%

INFINITY                 US Diagnostics                       0.23%            0.09%–0.37%

Liberty 2                Nipro Diagnostics, Inc.              0.83%            0.56%–1.10%

Liberty Autocode         AgaMatrix, Inc.                      0.46%            0.26%–0.66%

NovaMax                  Nova Biomedical                      0.76%            0.50%–1.01%

On-Call Plus             ACON Laboratories, Inc.              0.18%            0.06%–0.31%

OneTouch Select          LifeScan, Inc.                       0.37%            0.19%–0.55%

OneTouch Ultra           LifeScan, Inc.                       4.11%            3.52%–4.70%

OneTouch Ultra Blue      LifeScan, Inc.                       5.03%            4.38%–5.68%

OneTouch Verio           LifeScan, Inc.                       0.25%            0.10%–0.40%

OptiumEZ                 Abbott Diabetes Care                 0.14%            0.03%–0.25%

Perfect 3                Gluco Perfect                        0.05%            0.00%–0.11%

Prodigy AutoCode         Prodigy Diabetes Care               19.44%          18.26%–20.62%
                                                                           continued on next page




Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
Page 13 – Marilyn Tavenner


Appendix B
Market Share Estimates and Their 95-Percent Confidence Intervals for 62 Types of Mail Order
Diabetes Test Strips for the 3-Month Period of April to June 2013 (continued)

Model                                  Manufacturer                Percentage       95-Percent Confidence
                                                                     of Market          Interval for Market
                                                                         Share                        Share
Solo V2                       BioSense Medical Devices                   0.78%                 0.52%–1.04%

SolusV2                       BioSense Medical Devices                   4.71%                 4.08%–5.33%

SureEdge                      Specialty Medical Supplies                 0.05%                 0.00%–0.11%

TRUEbalance                   Nipro Diagnostics, Inc.                    0.50%                 0.29%–0.72%

TRUEtest                      Nipro Diagnostics, Inc.                   14.71%              13.66%–15.76%
                              TEMCare Medical Design &
Vero Star TK                                                             0.09%                 0.00%–0.18%
                              Manufacturing, Inc.
WaveSense Presto              AgaMatrix, Inc.                            0.05%                 0.00%–0.11%


   Total                                                             100.00%**
Source: OIG analysis of supplier documentation and Medicare claims containing HCPCS code A4253 KL for the 3-month 

period of April to June 2013. 

**Column does not sum to 100 percent because of rounding. 





Medicare Market Shares of Mail Order Diabetes Test Strips Immediately Prior to the National Mail Order
Program (OEI-04-13-00681)
